WAIVER

SUPREME COURT OF THE UNITED STATES

20-762

 

Supreme Court Case No.
Eric Ferrier y, Cascade Falls Condominium Association, Inc
(Petitioner) (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:

G Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Bank of America, N.A.

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed, since your aslmission):
/

 
 
 
 

 

 

Signature €
Date_ Jan 4, 2021

Mary J. Walter
Om. &UMs. OMrs. Q Miss
Firm_Liebler, Gonzalez & Portuondo, P.A.

(Type or print) Name

 

Address _44 West Flagler Street, 25th Floor
City & State Miami, FL Zip 33130
Phone 305-379-0400

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

oS REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
OCKET.

CC: Bric Ferrier, 178 Columbus Ave #237002, New York, NY 10023, ericferrier@outlook.com
Emanuel Galimidi, Esq., Forrest Andrews, Esq., Lydecker Diaz, LLC, 1221 Brickell Ave.,
19th Floor, Miami, FL 33131, eg@lydeckerdiaz.com, fla@lydeckerdiaz.com

 
